Roderick and Solange MacArthur Justice Center
501 H Street NE, Suite 275
Washington, DC 20002

Amir H. Ali
Director, Washington, DC Office
Deputy Director, Supreme Court & Appellate Program

macarthurjusticecenter.org

amir.ali@macarthurjustice.org
O 202 869 3434
F 202 869 3435

February 8, 2021
BY U.S. MAIL
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Thompson v. Clark, No. 20-659

Dear Mr. Harris,
I represent petitioner in the above-referenced case. Pursuant to Supreme Court Rule 15.5,
petitioner waives the 14-day waiting period for distribution of his certiorari petition. I request that
the petition materials be distributed on the Court’s next distribution date for paid cases, which I
understand to be February 10, 2021. Petitioner will file his reply brief by tomorrow, February 9,
2021.
Thank you for your attention to this matter.
Sincerely,

Amir H. Ali
cc: Richard Dearing, counsel of record for respondents

